HHS/OIG, Audit -"Review of Indianas Medicaid Upper Payment Limits for State Fiscal Years 2001 and 2002,"(A-05-03-00068)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Indianas Medicaid Upper Payment Limits for State Fiscal Years 2001 and 2002," (A-05-03-00068)
September 30, 2005
Complete
Text of Report is available in PDF format (873 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether Indiana calculated the upper payment limit (UPL) in accordance
with Federal regulations and the approved State plan amendment for: non-State government hospitals
(including UPL payments in the calculation of hospital-specific disproportionate share hospital limits)
and non-State government nursing homes.  Indiana overstated the amounts available for UPL payments
to non-State government hospitals by about $2.2 million for State fiscal year 2001 and by about $4.3
for 2002. The calculations were contrary to State plan provisions because they included unpaid claims
rather than Medicaid payments.
We recommended that Indiana refund $3,173,161 to the Federal Government and revise its UPL methodology
to exclude unpaid Medicaid claims from the calculation.  In its reply, Indiana disagreed.